IN THE SUPREME COURT OF THE UNITED STATES
No. 19-

DONCEY FRANK BOYKIN,
Petitioner,
Wi.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 6,499 words, including the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 27, 2020.

pe OL
Steven Winkelman

Counsel of Record
Covington & Burling LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000

Counsel for Petitioner Doncey Boykin
